          Office of Inspector General
Corporation for National and Community Service

                   Semiannual Report to the Congress
                                       for the period
                   October 1, 2001 - March 31, 2002
                                     Fiscal Year 2002
                                  Semiannual Report No. 1




As required by the Inspector General Act of 1978, as amended, this report describes our
activities and accomplishments for the first half of the fiscal year. Section 5 of the Act requires
that the Corporation’s Chief Executive Officer submit this report to the Congress and the
Corporation’s Board of Directors within 30 days of its receipt.
                                       TABLE OF CONTENTS


EXECUTIVE SUMMARY ....................................................................................................................i

IG ACT REPORTING REQUIREMENTS ......................................................................................... iii

AUDIT SECTION

    Financial Management ......................................................................................................................1
    Grant Management and Oversight .....................................................................................................1
    Information Systems ..........................................................................................................................4
    Procurement .......................................................................................................................................5
    Audit Resolution ...............................................................................................................................5

INVESTIGATIONS SECTION ...........................................................................................................11

REVIEW OF LEGISLATION & REGULATIONS ............................................................................15


TABLES

    Table I                  Inspector General Reports with Questioned Costs ..............................................16
    Table II                 Inspector General Reports with Recommendations
                             That Funds Be Put To Better Use ........................................................................17
    Table III                Summary of Audits with Overdue Management Decisions ................................18
    Table IV                 Reports Described in Prior Semiannual Reports
                             Without Final Action ...........................................................................................19




                                                Office of Inspector General
                                      Corporation for National and Community Service
                                         1201 New York Avenue, N.W., Suite 830
                                                  Washington, DC 20525

                                            Telephone (202) 606-5000, extension 390
                                                   Facsimile (202) 565-2795
                                                    Hotline (800) 452-8210
                         EXECUTIVE SUMMARY
AUDIT SECTION                                          Corporation has done a respectable job of
                                                       providing agency-wide information security
During this semiannual reporting period, OIG           (page 4).
issued ten audit reports, including the audit of
the Corporation’s fiscal year 2001 financial           OIG completed a risk management assessment
statements and audits of grants awarded to two         of the Corporation’s contractual initiative to
state commissions. Summaries of all audit              develop an integrated electronic grants
reports issued during this period are on page          management system that included: (1)
10.                                                    assessing the inherent risks; (2) understanding
                                                       the controls in place; (3) determining the
Financial Management                                   effectiveness of the controls; (4) identifying
                                                       control weaknesses; and (5) deducing and
The audit of the Corporation’s fiscal year 2001        reporting residual risk.       The assessment
financial statements resulted in an unqualified        concluded that the Corporation has adequately
opinion on the Statement of Financial Position         managed the project and found that the current
as of September 30, 2001 and the related               level of residual risk is low except in a few
Statements of Operations and Changes in Net            areas where the risk was rated as medium
Position and Cash Flows for the year. The              (page 4).
audit confirmed that the Corporation has made
steady progress in improving its financial             INVESTIGATIONS SECTION
management system. No material weaknesses
or instances of material non-compliance with           During this semiannual reporting period we
laws or regulations were identified (page 1).          received and processed 13 Hotline calls,
                                                       opened 21 investigative actions, and
Grant Management and Oversight                         completed 36 investigative actions. We
                                                       referred eight matters to the Department of
The incurred-cost audits of the North Carolina         Justice for prosecution or civil enforcement.
Commission on Volunteerism and Community               Highlights of investigations closed during this
Service resulted in questioned costs of $614           period are presented on pages 11 through 14.
thousand (4 percent) of the $14.3 million in
costs claimed, while the audit of the Missouri         Grantees/AmeriCorps Members
Community Service Commission resulted in
questioned costs of $7.9 million (66 percent)          Improper transfer of $166,000 of Learn and
of the $12 million in costs claimed against            Serve grant funds results in the Corporation
Corporation grants. Both reports also included         recovering $172,000, an amount equal to the
findings and recommendations on matters of             unused portion of the grant, the improper
compliance and internal controls (page 2).             expenditures, and interest (page 11).

Information Systems                                    Misapplication of over $116,000 of
                                                       AmeriCorps grant funds and submission of
OIG performed an independent evaluation of             fraudulent documents to the Corporation
the Corporation’s information security                 results in a prison sentence, court-ordered
program and practices and its compliance with          restitution, and debarment from doing
the Government Information Security Reform             business with the Federal Government for
Act of 2000 (Public Law 106-398). The                  Chief Executive Officer of sub-grantee (page
assessment generally concluded that the                11).


                                                   i              FY02 Semiannual Report No. 1
                                                     EXECUTIVE SUMMARY
False certification of AmeriCorps member             Improperly paid AmeriCorps stipends and
service hours and allowing payment of                education awards to be repaid by grantee
unearned education awards results in prison          (page13).
sentence, court-ordered restitution, and
debarment from doing business with the               Headquarters Operations
Federal Government for program director
(page 12).                                           Completion of investigations brings to
                                                     conclusion year-long review of travel card
Theft of RSVP funds and misuse of state              misuse by Corporation employees (page 13).
funds results in supervised probation, court-
ordered restitution, and potential debarment
from doing business with the Federal                 OUTREACH EFFORTS
Government for director of RSVP sponsor
(page 12).                                           As a part of our ongoing fraud prevention
                                                     efforts, the Deputy Inspector General for
Former AmeriCorps program director faces             Investigations and Operations provided an
debarment after making improper stipend              OIG presentation at the most recent
payments (page 12).                                  Corporation New Employee Orientation
                                                     session.     The presentation included the
Former AmeriCorps program director faces             authority and responsibilities of the OIG and
debarment after admitting to forgery and             when and how employees should contact the
submission of false time sheets in an attempt        OIG.
to obtain an unearned education award (page
13).




                                                ii              FY02 Semiannual Report No. 1
         IG ACT REPORTING REQUIREMENTS
This table cross-references the reporting requirements prescribed by the Inspector General Act of
1978, as amended, to the specific pages in the report where they are addressed.

   Requirement                                                                            Page

 Section 4 (a)(2)    Review of legislation and regulations                                 15
 Section 5 (a)(1)    Significant problems, abuses, and deficiencies related to the     Throughout
                     administration of Corporation programs and operations
 Section 5 (a)(2)    Recommendations with respect to significant problems, abuses,     Throughout
                     and deficiencies found in the administration of Corporation
                     programs and operations
 Section 5 (a)(3)    Prior significant recommendations on which corrective action          19
                     has not been completed
 Section 5 (a)(4)    Matters referred to prosecutive authorities                           14
 Section 5 (a)(5)    Summary of instances where information was refused                 None this
                                                                                         period
 Section 5 (a)(6)    List of audit reports by subject matter showing dollar value of     1-5 & 10
                     questioned costs and recommendations that funds be put to
                     better use
 Section 5 (a)(7)    Summary of each particularly significant report                   Throughout
 Section 5 (a)(8)    Statistical table showing number of reports and dollar value of       16
                     questioned costs
 Section 5 (a)(9)    Statistical table showing number of reports and dollar value of       17
                     recommendations that funds be put to better use
 Section 5 (a)(10)   Summary of each audit issued before this reporting period for         18
                     which no management decision was made by end of reporting
                     period
 Section 5 (a)(11)   Significant revised management decisions                           None this
                                                                                         period
 Section 5 (a)(12)   Significant management decisions with which the Inspector          None this
                     General disagrees                                                   period




                                              iii                  FY02 Semiannual Report No. 1
                                 AUDIT SECTION
The Office of Inspector General (OIG) is responsible for reviewing financial, administrative, and
program aspects of Corporation operations. It carries out these responsibilities by auditing the
Corporation’s annual financial statements, assessing the Corporation’s management controls,
reviewing Corporation operations and information technology, and auditing individual grants,
contracts, and cooperative agreements funded by the Corporation. All OIG audit reports are referred
to Corporation management for action or information. A list of the reports issued by the Audit
Section during this period can be found on page 10.

                             FINANCIAL MANAGEMENT
Audit of the Corporation for National and Community Service’s Fiscal Year 2001 Financial
Statements (OIG Audit Report Number 02-01)

OIG contracted with KPMG to audit the Corporation’s fiscal year 2001 financial statements. This
audit, conducted in accordance with government auditing standards, resulted in an unqualified
opinion on the Corporation’s Statement of Financial Position as of September 30, 2001, and the
related Statements of Operations, Changes in Net Position, and Cash Flows for the year then ended.

The auditors noted certain matters involving the internal control over financial reporting and its
operations that were considered to be a reportable condition. OIG and KPMG agreed, however, that
this reportable condition related to the monitoring of grantee activities did not constitute a material
weakness. As a result, the fiscal year 2001 audit identified no material weaknesses.

The report substantiates that the Corporation has made significant progress in improving its financial
management and internal controls over the past several years.

                   GRANT MANAGEMENT AND OVERSIGHT
The Corporation awards National and Community Service Act and Domestic Volunteer Service Act
grants to state and local governments, state commissions, institutions of higher education, and other
not-for-profit organizations. Grantees are required, among other things, to expend funds only for
allowable costs and to provide periodic reports to the Corporation to demonstrate programmatic and
financial compliance with the terms of the respective grant agreements. The Corporation is
responsible for ensuring that grantees comply with applicable laws and regulations related to the
administration of grant awards, including those related to Federal cash management requirements.

OIG performs audits of the Corporation’s oversight of grantees and audits of specific grants to assess
whether reported costs were allowable under Federal regulations and whether grantees complied with
the terms and conditions of the awards. Our reports on Corporation grants contain recommendations
for correcting the deficiencies identified in the reports. Typically, the recommendations are for the
grantees to reimburse questioned costs and to establish and implement policies and procedures to
prevent future instances of non-compliance and improve internal controls. We also make
recommendations for increased oversight by the Corporation and improvements in Corporation grants
management operations.




                                                1                  FY02 Semiannual Report No. 1
                                                                                        AUDITS
State Commission Audits

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit
entities, tribes and territories to assist in the creation of full and part time national and community
service programs. Consistent with the Act's provisions, the Corporation awards approximately two
thirds of its AmeriCorps State/National funds to state commissions. The state commissions in turn
fund and are responsible for the oversight of subgrantees who execute the programs. Through these
subgrantees, AmeriCorps members perform service to meet educational, human, environmental, and
public safety needs.

Audit of Corporation for National and Community Service Grants Awarded to North Carolina
Commission on Volunteerism and Community Service (OIG Audit Report Number 02-08)

OIG engaged L. G. Birnbaum and Company to perform an incurred cost audit of Corporation grants
to the North Carolina Commission for AmeriCorps, Learn and Serve, Professional Development and
Training, Promise Fellows and Administrative costs from January 1, 1994 through September 30,
2000. The audit identified questioned costs of $614,235 (approximately four percent) of the
$14,351,222 of costs that the Commission claimed during the audit period. Of the $614,235 of
questioned costs, $370,360 were questioned because the Commission and/or its subgrantees were
unable to provide documentation to support the claimed costs. Other costs questioned included
excessive living allowances, living allowances questioned because key eligibility documentation
could not be located, and related administrative expenses. The report also includes 17
recommendations to the Commission to address weaknesses in the areas of compliance and internal
controls.

Incurred Cost Audit of Grants Awarded to the Missouri Community Service Commission (OIG
Audit Report Number 02-11)

OIG engaged KPMG to audit Corporation grants to the Missouri Commission and its subgrantees for
the period from January 1, 1994 through December 31, 2000 for AmeriCorps, Administration, and
Professional Development and Training programs. The audit identified total questioned claimed costs
of $7,903,629 (approximately 66%) out of total costs claimed of $12,050,477 for the thirteen
subgrantees subjected to detailed testing. The majority of the questioned costs resulted either from
the inability of subgrantees to provide supporting documentation or the lack of sufficient awareness
by subgrantees of member eligibility requirements in the AmeriCorps Provisions. A number of
conditions relating to internal control over financial reporting that require correction were identified.
Two of them were determined to be material weaknesses. First, the report concluded that the
Commission lacked adequate procedures for monitoring the financial activity and related compliance
with laws and regulations of its subgrantees, especially retention of verifiable records to support
claimed costs and reported program results. The second material weakness related to the absence of
an effective system at the Commission for ensuring quality control of accounting and financial
reporting activities and for assessing the system for internal controls for safeguarding assets,
producing reliable financial reports, and complying with laws and regulations.

The significance of the questioned costs, the lack of controls over financial reporting and subgrantee
monitoring, and the nature of the specific findings that are identified in the report precluded KPMG


                                                 2                  FY02 Semiannual Report No. 1
                                                                                     AUDITS
from providing an auditor’s opinion (assurance) on the more than $12 million in costs reported and
claimed by the Missouri Commission.

Grants Awarded to Entities Other Than State Commissions

Audit of Corporation for National and Community Service Grant Number 97LHEDC001 to the
American Association of Community Colleges (OIG Audit Report Number 02-03)

OIG engaged L. G. Birnbaum and Company to audit costs claimed by the American Association of
Community Colleges under grant number 97LHEDC001. The audit covered the period July 1, 1997
through June 30, 2000 and included procedures to determine if costs claimed in financial reports
prepared by the Association were allowable, internal controls were adequate to safeguard Federal
funds, and whether the Association had policies and procedures adequate to ensure compliance with
Federal laws, applicable regulations and award conditions. As a result of the work performed, the
auditors questioned $72,542 (9 percent) of the $769,500 costs claimed over the three year period; $52
thousand of the questioned costs resulted from inadequate documentation.

Audit of Corporation for National and Community Service Grant Numbers 440A001/12, 13 & 14 to
Baltimore County Department of Aging (OIG Audit Report Number 02-05)

OIG engaged L. G. Birnbaum and Company to audit costs claimed by the Baltimore County
Department of Aging under grant numbers 440A001/12, 13 & 14. The audit covered the period
October 1, 1997 through September 30, 2000 and included procedures to determine if costs claimed
in the Department's financial reports were allowable, internal controls were adequate to safeguard
Federal funds, and whether the Department had policies and procedures adequate to ensure
compliance with Federal laws, applicable regulations and award conditions. As a result of the work
performed, none of the costs claimed were questioned.

Follow-Up on the Corporation’s Management Decision Regarding Questioned Costs Reported in
OIG Audit Report 99-04, Audit of Congressional Hunger Center (OIG Audit Report Number 02-
07)

OIG engaged L. G. Birnbaum to assess the evidence underlying the Corporation’s final decision to
allow certain costs questioned as a result of OIG’s audit of costs claimed against Corporation grants
by the Congressional Hunger Center (OIG Audit Report 99-04). As discussed in OIG’s March 31,
2001 Semiannual Report, OIG was concerned because $96 thousand of the $128 thousand of the
reinstated costs had been described by management as being based on documentation that had been
warehoused at the time of the audit and not reviewed by the auditors.

L. G. Birnbaum performed agreed upon procedures to review the documentation supporting the
decision to determine whether it was competent; that is, relevant and valid. The follow up analysis
determined that $18,446 of the $128,589 of costs were inappropriately reinstated. As a result, OIG
concurred with the Corporation's decision that the remaining $104,873 of reinstated costs were
allowable.




                                               3                  FY02 Semiannual Report No. 1
                                                                                    AUDITS
Audit of Corporation for National and Community Service Grants to the National Council of
Churches of Christ in the USA (OIG Audit Report Number 02-12)

OIG engaged L. G. Birnbaum to audit costs claimed by the National Council of Churches of Christ in
the USA under two Corporation grants. The grants funded AmeriCorps programs operated by the
Council and provided for education awards to be earned by AmeriCorps members. Under Grant No.
94ADNNY028, funding was provided for the program’s operations, including AmeriCorps member
support and administrative costs. L. G. Birnbaum found material weaknesses and other conditions
that precluded the firm from practicably auditing these grants. Based on our review of their report
and its underlying work papers as well as discussions with Corporation officials and Council
representatives, OIG concurred that attempting to continue audit work was not prudent. The National
Council no longer operates any AmeriCorps programs and is continuing an effort in conjunction with
the Corporation to clarify and resolve remaining issues.

                              INFORMATION SYSTEMS
OIG Letter Report Regarding Corporation for National and Community Service Compliance with
the Government Information Security Reform Act (OIG Audit Report Number 02-04)

In compliance with section 3535 of Title 44, US Code, as added by the Government Information
Security Reform Act of 2000 (Public Law 106-398), OIG performed independent evaluations of the
Corporation’s information security program and practices and its compliance with the Act. In
performing these evaluations, OIG followed implementing guidance and reporting instructions
contained in two memorandums (M-01-08 and M-01-24) that the Office of Management and Budget
issued on January 16, 2001 and June 22, 2001, respectively.

OIG engaged KPMG to analyze four elements of the Corporation’s information technology systems,
including: (1) Momentum, the Corporation’s financial management system; (2) the System for
Programs, Agreements and National Service participants (SPAN); (3) the Corporation’s Network; and
(4) agency-wide policies and procedures not specific to an individual system. The assessments
generally concluded that the Corporation has done a very respectable job of providing agency-wide
information security but noted three areas that need improvement, including strengthening program
officials' involvement, integrating security planning with other management functions, and improving
the Corporation's documentation of information security policies and procedures.

Assessment of Project Management Risks Related to the Corporation for National and Community
Service’s Development of a Grants Management System (OIG Audit Report Number 02-22)

OIG engaged KPMG to prepare a project risk management assessment of the Corporation's
contractual initiative to develop an integrated electronic grants management system capable of
providing comprehensive financial information for all grants and cooperative agreements. This
independent risk assessment of the project's management practices employed a five-part methodology
that considered: (1) assessing the inherent risks; (2) understanding the controls in place; (3)
determining the effectiveness of the controls; (4) identifying control weaknesses; and (5) deducing
and reporting residual risk.




                                               4                 FY02 Semiannual Report No. 1
                                                                                       AUDITS
The assessment concluded that the Corporation has adequately managed the project and found that
the current level of residual risk is low except in a few areas that were rated as medium. The analysis
identified three areas that require additional management attention. Recommendations were provided
to the Corporation for appropriate action.

                                      PROCUREMENT
Audit of Corporation for National and Community Service Contract Number CNCS 94-005 with
Rand Corporation (OIG Audit Report Number 02-06)

OIG engaged Cotton and Company to audit costs claimed by the RAND Corporation under contract
number CNCS 94-005. The audit included procedures to determine if costs claimed in financial
reports prepared by RAND were allowable, internal controls were adequate to safeguard Federal
funds, and whether RAND had policies and procedures adequate to ensure compliance with Federal
laws, applicable regulations and award conditions.

As a result of the work performed, the auditors questioned $8,788 of the $2,243,247 costs claimed
over the contract period. A substantial portion of the questioned costs ($6,302) resulted from
inadequate supporting documentation of indirect costs claimed.

                                   AUDIT RESOLUTION
Audit Resolution Process

Between October 2001 and March 2002, Corporation and OIG representatives met on numerous
occasions to review open audit recommendations from reports that were issued prior to 2001 in a
concentrated effort to resolve outstanding issues and reduce the number of reports on which final
action had not been completed. As a result of this joint initiative, OIG has concurred in the
Corporation's final actions on 39 audit reports. Twenty-six of these audit reports were issued between
1998 and 2000. Several reasons support OIG's decision at the present time to close the previously
open recommendations in these reports. First, management provided additional evidence concerning
the scope and effectiveness of its corrective actions. Second, OIG has agreed to track
recommendations that repeat in multiple audit reports based solely on the most recently issued
version and will not continue the previous practice of listing identical recommendations contained in
multiple reports. Third, OIG has closed recommendations from earlier reports that are no longer
relevant to the Corporation's current business practices because they have been overcome by events
such as changes in technology, software, or other factors. Fourth, recommendations included in the
Corporation's Action Plan have been closed since they were compiled from identical
recommendations included in audit reports issued prior to dissemination of the Action Plan in 1999.
The Corporation developed the Action Plan to facilitate its effort to obtain an unqualified audit
opinion on its Financial Statements. It has made significant improvements in its financial
management system and received unqualified opinions on its Financial Statements for Fiscal Years
2000 and 2001. As a result, recommendations from the Action Plan may now be closed. Reducing
the number of open recommendations in the audit resolution database will contribute to a more
comprehensible and meaningful display of open findings and recommendations that require
management's attention in developing appropriate and effective corrective actions.


                                                5                  FY02 Semiannual Report No. 1
                                                                                     AUDITS
Notices of Final Action Received

OIG has received and concurred in the following Notices of Final Action. Management has reported
that its corrective actions in response to these audits have been completed. As a result of the audit
resolution initiative by the Corporation's management and OIG, the number of audit reports without
final action has been reduced from 43 in Table IV of the previous Semiannual Report (Fiscal Year
2001, Semiannual Report No. 2, covering the period April 1, 2001 to September 30, 2001) to 8 for the
current reporting period.

Pre-Audit Survey Reports

Audit Report 00-08, Pre-Audit Survey Report of the North Carolina Commission on Volunteerism
and Community Service

Audit Report 00-10, Pre-Audit Survey Report of the Washington Commission on National and
Community Service

Audit Report 00-11, Pre-Audit Survey Report of the Kentucky Commission on Community
Volunteerism and Service

Audit Report 00-14, Pre-Audit Survey Report of the Pennsylvania Commission on National and
Community Service

Audit Report 00-15, Pre-Audit Survey Report of the Ohio Governor's Community Service Council

Audit Report 00-16, Pre-Audit Survey Report of the West Virginia Commission on National and
Community Service

Audit Report 00-17, Pre-Audit Survey Report of the Missouri Community Service Commission

Audit Report 00-18, Pre-Audit Survey of the Virginia Commission on National and Community
Service

Audit Report 00-19, Pre-Audit Survey Report of the New Hampshire Commission on National and
Community Service

Audit Report 00-26, Pre-Audit Survey Report of the New Jersey Commission on National and
Community Service

Audit Report 00-28, Pre-Audit Survey of the Idaho Commission on National and Community Service

Audit Report 00-29, Pre-Audit Survey of the Wisconsin National and Community Service Board

Audit Report 00-30, Pre-Audit Survey of the Florida Commission on Community Service

Audit Report 00-31, Pre-Audit Survey of the Minnesota Commission on National and Community
Service


                                               6                  FY02 Semiannual Report No. 1
                                                                                   AUDITS
Audit Report 00-32, Pre-Audit Survey of the Illinois Commission on Community Service

Audit Report 00-34, Pre-Audit Survey of the New Mexico Commission for Community Volunteerism

Audit Report 00-35, Pre-Audit Survey of the Wyoming Commission on National and Community
Service

Audit Report 01-03, Pre-Audit Survey Report of the Oregon Community Service Commission

Audit Report 01-15, Pre-Audit Survey of the Mississippi Commission for Volunteer Service

Audit Report 01-16, Pre-Audit Survey of the Maryland Governor's Office on Service and
Volunteerism

Audit Report 01-17, Pre-Audit Survey of the Nevada Commission on National and Community
Service

Audit Report 01-18, Pre-Audit Survey of the California Commission on Improving Life Through
Service

Audit Report 01-19, Pre-Audit Survey of the Maine Commission for Community Service

Audit Report 01-20, Pre-Audit Survey of the Alabama State Commission on National and Community
Service

Audit Report 01-22, Pre-Audit Survey of the South Carolina Commission on National and
Community Service

Audit Report 01-23, Pre-Audit Survey of the Texas Commission on Volunteerism and Community
Service

Audit Report 01-26, Pre-Audit Survey of the Vermont Commission on National and Community
Service

Procurement and Contracts

Audit Report 98-24, Audit of the Corporation's Procurement and Contracting Process and
Procedures

Audit Report 99-15, Audit of the Corporation's Oversight and Monitoring of the Health Benefits
Program

Audit Report 00-02, Audit of Corporation for National and Community Service Contract No. CNCS
94-004 and 97-743-1006 with Aquirre International

Audit Report 00-12, Follow-up Audit of the Corporation's Procurement Operations



                                              7                 FY02 Semiannual Report No. 1
                                                                                    AUDITS
Audit Report 00-23, Audit of Corporation for National and Community Service Contract No. CNCS
94-003 & No. CNCS 95-002 with Hi-Tech International, Inc.

Audit Report 02-06, Audit of Corporation for National and Community Service Contract Number
CNCS 94-005 with RAND Corporation

Grants Management

Audit Report 98-02, Review of Corporation for National Service Pre-Award Financial Assessment of
Grant Applicants

Audit Report 99-04, Audit of Congressional Hunger Center Cooperative Agreement No. 96ADNDC0

Audit Report 99-05, Evaluation of the Corporation's Monitoring and Oversight of Cooperative
Agreement No. 96ADNDC099 Awarded to Congressional Hunger Center

Audit Report 00-04, Evaluation of the Corporation's Oversight and Monitoring of the Cooperative
Agreement with the National Association of Child Care Resource Referral Associations

Audit Report 01-12, Audit of Corporation for National Service Grant Number 439S059 to the West
Virginia Bureau of Senior Services

Audit Report 01-14, Review of the Corporation's Use of Single Audit Reports

Management Decisions Received

Under the Corporation's audit resolution procedures, the Corporation's Chief Financial Officer must
respond to an audit report with a Management Decision not more than six months after the report's
issuance. The Management Decision describes management's agreement or disagreement with the
findings and recommendations and describes the approved corrective actions and a timetable for their
implementation. Final action on corrective measures must be completed within twelve months of the
report's issuance. Management transmits a Notification of Final Action when all corrective actions
have been completed. Between October 2001 and March 2002, Corporation management issued
decisions on twelve audit reports. OIG has concurred with management's resolution of the findings
and recommendations in these reports and will await notification when the corrective actions have
been implemented.

Pre-Audit Surveys

Audit Report 01-03, Pre-Audit Survey of the Oregon Community Service Commission

Audit Report 01-16, Pre-Audit Survey of the Maryland Governor's Office on Service and
Volunteerism

Audit Report 01-17, Pre-Audit Survey of the Nevada Commission on National and Community
Service



                                               8                 FY02 Semiannual Report No. 1
                                                                                 AUDITS
Audit Report 01-21, Pre-Audit Survey of the Connecticut Commission on National and Community
Service

Audit Report 01-24, Pre-Audit Survey of the Massachusetts Service Alliance

Audit Report 01-25, Pre-Audit Survey of the Colorado Governor's Commission on Community
Service

Audit Report 01-26, Pre-Audit Survey of the Vermont Commission on National and Community
Service

Grants Management

Audit Report 01-12, Audit of Corporation for National Service Grant Number 439S059 to the West
Virginia Bureau of Senior Services

Audit Report 01-28, Report on the Controls Over the Corporation for National and Community
Service's Key Performance Indicators and Accomplishment Statistics

Procurement and Contracts

Audit Report 02-06, Audit of Corporation for National and Community Service Contract Number
CNCS 94-005 with RAND Corporation

Information Technology

Audit Report 01-34, Review of the Corporation for National and Community Service's Network and
Computer Security Plan




                                              9                 FY02 Semiannual Report No. 1
                                                                                     AUDITS


                    AUDIT REPORTS ISSUED DURING THE PERIOD
                     OCTOBER 1, 2001 THROUGH MARCH 31, 2002

                                                                             Federal           Federal
Report     Issue                                                             Dollars           Dollars
Number     Date                           Report Name                       Questioned       Unsupported

                                                                              (Dollars in thousands)

02-01    3/15/02    Audit of the Corporation for National and Community
                    Service’s Fiscal Year 2001 Financial Statements                  --                --

02-03    12/27/01   Audit of Corporation for National and Community
                    Service Grant Number 97LHEDC001 to American
                    Association of Community Colleges                          $    73          $      53

02-04    10/5/01    OIG Letter Report Regarding Corporation for National
                    and Community Service Compliance with the                        --                --
                    Government Information Security Reform Act
02-05    10/18/01   Audit of Corporation for National Service Grant
                    Numbers 440A001/12, 13 & 14 to Baltimore County                  --                --
                    Department of Aging
02-06    10/30/01   Audit of Corporation for National and Community
                    Service Contract Number CNCS 94-005 with RAND                        9             9
                    Corporation.
02-07    10/24/01   Follow-up on the Corporation’s Management Decision
                    Regarding Questioned Costs Reported in OIG Audit                 --                --
                    Report 99-04, Audit of Congressional Hunger Center
02-08     2/8/02    Audit of the Corporation for National and Community
                    Service Grants Awarded to North Carolina Commission            614              370
                    on Volunteerism and Community Service
02-11    2/21/02    Incurred Cost Audit of Grants Awarded to the Missouri       7,904             7,790
                    Community Service Commission
02-12    3/22/02    Audit of Corporation for National and Community
                    Service Grants to the National Council of Churches of            --                --
                    Christ in the USA
02-22    3/29/02    OIG Letter Report Regarding Assessment of Project
                    Risks Related to the Corporation for National and                --                --
                    Community Service’s Development of a Grants
                    Management System

                    TOTAL                                                     $ 8,600           $ 8,222




                                             10                   FY02 Semiannual Report No. 1
                    INVESTIGATIONS SECTION
We began this reporting period with 33 previously opened investigative actions. During this
reporting period we opened 21 new investigative actions and closed 36. We had 18 investigative
actions pending at the end of the reporting period.

                HIGHLIGHTS OF INVESTIGATIONS CLOSED
                   DURING THIS REPORTING PERIOD
Corporation Recovers Funds Improperly Transferred and Expended

We completed an investigation we opened when a state auditor reported his office received a hotline
call alleging the state’s Department of Education had improperly transferred $166,000 of Corporation
Learn and Serve grant funds to a local school district. Our investigation determined the funds were
transferred, that the transfer occurred without the knowledge of the Corporation, that the transfer was
not accomplished pursuant to a sub-grant approved in the grant application, and that expenditures
were made that were not allowed by the grant. Prosecution was declined because the person
responsible for transferring the funds was no longer employed by the state and had left the state, and
because administrative means were available for the Corporation to recover the funds from the state.
The state’s Department of Education remitted $172,000 to the Corporation, an amount equal to the
unused portion of the grant, the improper expenditures, and interest. (00-023)

Former President and Chief Executive Officer of Corporation Sub-Grantee Found Guilty and
Sentenced

We completed an investigation that we opened after receiving allegations that Corporation funds were
being misapplied and/or embezzled by a Corporation sub-grantee. We found evidence that the sub-
grantee's Chief Executive Officer was providing supplemental salaries to her employees by
fraudulently reporting them to the Corporation as full-time AmeriCorps members. This enabled her
employees, none of whom were performing AmeriCorps service, to receive the Corporation-funded
AmeriCorps stipends in addition to their salaries provided by the sub-grantee. The fraudulent
reporting of the employees as AmeriCorps members resulted in the criminal misapplication of
$116,751.67 of Corporation-funded stipends and medical insurance payments.

The Chief Executive Officer was removed from her position by the sub-grantee's board of directors,
and was subsequently found guilty in United States District Court of one count of misapplication of
Corporation AmeriCorps grant funds, and 14 counts of submitting fraudulent AmeriCorps participant
documents to the Corporation. The former Chief Executive Officer was sentenced on the 15 felony
counts to serve 41 months in Federal prison, followed by three years of supervised probation; to make
restitution of $116,751.67, of which $25,000 was due immediately; and to pay an additional $1,500
court assessment.




                                                11                 FY02 Semiannual Report No. 1
                                                                  INVESTIGATIONS
Corporation management suspended the former Chief Executive Officer from doing business with the
Federal Government following the grand jury indictment. After the former Chief Executive Officer
was found guilty and sentenced, the Corporation debarred her from doing business with the Federal
Government for a period of 41 months. (00-046)

False Certification Nets AmeriCorps Program Director Jail Time

We completed an investigation we opened when a Corporation program officer notified us that a state
commission reported a program director might have falsely certified that AmeriCorps members in the
program completed their service hours. We found evidence that the former AmeriCorps program
director falsely certified three members of the program he supervised completed the service hours
required for an education award when he knew that this was not true. The U.S. Attorney accepted the
matter for prosecution and the FBI joined the investigation. The former program director pled guilty
in U.S. District Court and was sentenced to four months confinement, four months house arrest, three
years probation, required to pay $8,565 restitution, and assessed $100 in court costs. The Corporation
debarred the former program director from doing business with the Federal Government for a period
of 24 months. (00-028)

Former Director of RSVP Sponsor Pleads Guilty to Theft of Funds

We completed an investigation we opened after Corporation management received an allegation that
the director of an organization sponsoring a Corporation-funded Retired Senior Volunteer Program
(RSVP) utilized RSVP funds for his personal use. Our investigation disclosed evidence that the
executive director diverted $2,347.27 of Federal program funds for his personal use. The executive
director resigned during the initial phases of our investigation. The U.S. Attorney declined to
prosecute based on the dollar amount of the loss. The local prosecutor accepted the matter for
prosecution and a subsequent state investigation found evidence that the former executive director
also used state funds to award approximately $60,000 in unauthorized salary increases. The former
executive director pled guilty and was sentenced to five years supervised probation, assessed a $23
per month probation fee, and required to pay restitution of $32,432.11, of which $2,347.27 is RSVP
funds. We provided Corporation management the information on the guilty plea and sentence, and
recommended they consider debarring the executive director, thereby disqualifying him from
Government procurement and non-procurement programs and Government sub-programs for a period
of time. (01-006)

Former AmeriCorps Program Director Admits Making Improper Payments

We completed an investigation we opened after an AmeriCorps program director reported he found
evidence of fraud committed by his predecessor. We coordinated with the FBI and worked jointly
with them as a part of an investigative task force that was already investigating alleged corruption
involving Federal grants. Two AmeriCorps Promise Fellows, one of whom is the son of the former
program director, admitted receiving AmeriCorps stipends on a regular basis when they performed no
community service, including a three week period that they both were in Japan with their National
Guard unit. The former program director admitted providing the stipends to the two Promise Fellows
when he knew that they had not performed community service, and admitted that he did so in order to
provide his son and the other AmeriCorps Promise Fellow an income. The two Promise Fellows did
not earn an education award, nor were they certified as eligible to receive an education award. After


                                               12                 FY02 Semiannual Report No. 1
                                                                  INVESTIGATIONS
initially accepting this matter for civil recovery, the Assistant United States Attorney for civil
enforcement decided to not pursue it any further, stating that the chances of recovery were low
inasmuch as two of the three individuals were unemployed. This matter was referred to management
with the recommendation that management consider debarring the former program director, thereby
disqualifying him from Government procurement and non-procurement programs and Government
sub-programs for a period of time. (00-024)

Former AmeriCorps Program Director Admits to Forgery and Submission of False Time Sheets in
Attempt to Obtain Unauthorized Education Award

We completed an investigation we opened after a Corporation program officer reported that
AmeriCorps member time sheets submitted by a Corporation grantee may be suspect in that they
appeared to be identical. Our investigation found no identical member time sheets, but we did find
evidence that a former program director at one of the grantee's sites submitted an education award
request in her own name, for an award she did not earn. The former program director admitted
forging a name as a supervisor on the false time sheets, and then submitting the false time sheets in
her own name in an attempt to get an education award. She told us she did this because she incurred
a large debt while pursuing her education and needed the money. The false time sheets were detected
before any funds were disbursed. Prosecution was declined. We referred this matter to management
with the recommendation that management consider debarring the former program director, thereby
disqualifying her from Government procurement and non-procurement programs and Government
sub-programs for a period of time. (02-004)

Improper Payments to AmeriCorps Members Recovered

We completed an investigation we opened after the executive director of a state commission reported
AmeriCorps member time sheet irregularities at one of the commission’s grantees. The grantee had
little or no backup documentation to support the service hours reported by the grantee’s AmeriCorps
members. We found some members were improperly certified for service hours they did not perform
and some members continued to receive stipends after they left the AmeriCorps program. The loss
due to education award payments being made to ineligible members was $48,286. This amount will
be repaid to the Corporation. The loss involving excess stipends was $50,099.61. The state
commission will recover this amount from their grantee and it will remain available for commission
use. (01-009)

Corporation Employees Misuse Government Travel Card

We completed seven separate investigations we opened as a part of our review of government travel
card use by Corporation employees. We compared charges to the employees’ government travel card
accounts to their official travel documents and found evidence that the employees used their official
government travel card for personal use. Corporation management was provided the necessary
reports and documents for their use in deciding what action to take against the employees.

The closing of these investigations concluded our proactive review of Corporation employees’ use of
their government travel cards, a review we began a year ago. During the past year we referred 43
employees to Corporation management after we found evidence the employees used their government
travel cards for personal use. (01-034, 01-067, 01-084, 01-087, 01-088, 01-090, 01-092)


                                               13                 FY02 Semiannual Report No. 1
                                                                                            INVESTIGATIONS


                           STATISTICAL SUMMARY OF INVESTIGATIONS


Opened and Closed

Number of Cases Open at Beginning of Reporting Period..............................                                  33


Number of New Cases Opened During This Reporting Period.......................                                       21


Number of Cases Closed During This Period With
Significant Findings.........................................................................................        14


Number of Cases Closed During This Period With
No Significant Findings...................................................................................           22


Total Cases Closed This Reporting Period......................................................                       36


Number of Cases Open at End of Reporting Period........................................                              18


Referred

Number of Cases Referred for Prosecution During
This Reporting Period......................................................................................           8


Number of Cases Accepted for Prosecution During
This Reporting Period......................................................................................           7


Number of Cases Declined for Prosecution During
This Reporting Period......................................................................................           2

Number of Cases Pending Prosecutive Review...............................................                             0




                                                                14                         FY02 Semiannual Report No. 1
 REVIEW OF LEGISLATION & REGULATIONS
Section 4(a)(2) of the Inspector General Act requires OIG to review and make recommendations
about existing or proposed legislation and regulations relating to the Corporation’s programs and
operations. OIG's recommendations are to address the impact of legislation and regulations on the
economy and efficiency of the Corporation's administration and operations. OIG is also to make
recommendations concerning the impact of legislation and regulations on the prevention and
detection of fraud and abuse in programs and operations that the Corporation administers and funds.

Status of Efforts to Develop an Automated Grants Management System

In providing the Corporation’s funding for the past two fiscal years as part of the Departments of
Veterans Affairs and Housing and Urban Development, and Independent Agencies Appropriations
Acts (Public Law 106-377 and Public Law 107-73), Congress specified that not less than $2 million
dollars in each fiscal year shall be used for the acquisition of a cost accounting system, establishment
of a grants management system, and creation of a central archives. The Corporation has implemented
a new cost accounting methodology, and instituted a policy on the establishment of a central archives.
The Corporation also expects to complete development and testing during fiscal year 2002 of an
electronic grants management system capable of providing comprehensive financial information for
all grants and cooperative agreements. As noted in the Audit Section, OIG engaged KPMG to
prepare a project risk management assessment of this system. The assessment concluded that the
Corporation had adequately managed the project and that the level of residual risk was generally low
except in a few areas rated as medium. The analysis identified three areas that require additional
management attention and recommendations for appropriate action have been provided to the
Corporation for consideration. Building on the assessment's conclusions, OIG in conjunction with the
Corporation will review the operational effectiveness of the new grants management system in the
fall of 2002 and certify its compliance with all Federal requirements for automated systems.

Report on Agency Compliance with the Rural Development Act

The fiscal 2002 appropriations act for the Department of Treasury, Postal, and Related Agencies
included a requirement (Section 647 of Public Law 107-67) that each Inspector General submit a
report to Congress on current departmental or agency policies that afford first priority to “rural areas”
for the location of all new office facilities. OIG reviewed the statute and determined in conjunction
with the Corporation's General Counsel that it applied to the Corporation. The Corporation recently
issued a memorandum specifying that rural areas will be given first priority in selecting any new
Corporation offices.




                                                15                  FY02 Semiannual Report No. 1
                               TABLE I
           INSPECTOR GENERAL REPORTS WITH QUESTIONED COSTS


                                                                  Federal Costs
                                                 Number   Questioned           Unsupported
                                                                (Dollars in thousands)

1. For which no management decision had            10     $   12,597                $ 5,286
   been made by the commencement of the
   reporting period


2. Which were issued during the reporting           4          8,600                      8,222
   period
                                                   _      _________              ________


3. Subtotals (1 plus 2)                            14         21,197                     13,508


4. For which a management decision was              4
   made during the reporting period:


    dollar value of disallowed costs                            67                           4

    dollar value of costs not disallowed           _            42                          33

5. For which no management decision had
   been made by the end of the reporting
                                                   10     $ 21,088                $ 13,471
   period (3 minus 4)


6. Reports with questioned costs for which          7     $ 12,496
   no management decision was made within
   six months of issuance




                                            16            FY02 Semiannual Report No. 1
                                 TABLE II
            INSPECTOR GENERAL REPORTS WITH RECOMMENDATIONS
                     THAT FUNDS BE PUT TO BETTER USE


                                                            Number          Dollar Value
                                                                          (Dollars in thousands)


 A. For which no management decision had been made               1                $ 56
    by the commencement of the reporting period


 B. Which were issued during the reporting period                1*                 62


 C. For which a management decision was made during
    the reporting period


     (i)    dollar value of recommendations that were
            agreed to by management


            based on proposed management action                 1                   56


            based on proposed legislative action                0                     0


     (ii)   dollar value of recommendations that were not       0                     0
            agreed by management


 D. For which no management decision has been made              1                   62
    by the end of the reporting period


 E. Reports for which no management decision was                0                 $ 0
    made within six months of issuance


*OIG Audit Report 02-08, Audit of the Corporation for National and Community Service Grants
Awarded to North Carolina Commission on Volunteerism and Community Service




                                              17            FY02 Semiannual Report No. 1
                                TABLE III
          SUMMARY OF AUDITS WITH OVERDUE MANAGEMENT DECISIONS



                                                          Federal
Report                                                    Dollars      Management      Status as of
Number                       Title                       Questioned    Decision Due   March 31, 2002
99-09    Audit of Corporation for National Service      $ 739,458        11/2/99      Management has
         Contract No. 95-743-1009 with Biospherics,                                   not resolved the
         Inc.                                                                         questioned costs.

99-10    Audit of Corporation for National and              296,665      1/29/00      Management has
         Community Service Contract No. 95-001 with                                   not resolved the
         TvT Associates, Inc.                                                         questioned costs.

99-18    Audit of Corporation for National and              50,850       2/13/00      Management has
         Community Service Contract No. 97-743-                                       not resolved the
         1001 with GS Tech, Inc.                                                      questioned costs.

00-21    Audit of the Corporation for National and       7,379,847       7/5/00       Management has
         Community Service Contract No. 95-743-                                       not resolved the
         1005 with Outsourced Administration                                          questioned costs.
         Systems, Inc.
00-22    Audit of Corporation for National and           1,102,982       3/20/01      Management has
         Community Service Contract No. CNCS 94-                                      not resolved the
         002 with Encore Management Corporation                                       questioned costs.

01-04    Incurred Cost Audit of Grants Awarded to the    2,556,570       3/26/02          Overdue
         Oregon Community Service Commission

01-05    Audit of Corporation for National and              369,652      7/11/01          Overdue
         Community Service Grant Numbers
         94SCSDE008, 94ASCDE008, 95PDSDE008,
         and 95LCSDE002 Awarded to Delaware
         Community Service Commission

                            Total                       $ 12,496,024




                                           18               FY02 Semiannual Report No. 1
                                  TABLE IV
                    REPORTS DESCRIBED IN PRIOR SEMIANNUAL
                        REPORTS WITHOUT FINAL ACTION


                                                                                       Final
Report                                                                    Date         Action
Number                               Title                               Issued         Due
99-09    Audit of Corporation for National Service Contract No. 95-      5/6/99        5/6/00
         743-1009 with Biospherics, Inc.

99-10    Audit of Corporation for National and Community Service         8/2/99        8/2/00
         Contract No. 95-001 with TvT Associates, Inc.

99-18    Audit of Corporation for National and Community Service         8/27/99      8/27/00
         Contract No. 97-743-1001 GS Tech, Inc.

00-06    Pre-Audit Survey Report of the Delaware Community Service       5/18/00      5/18/01
         Commission

00-21    Audit of Corporation for National and Community Service         1/6/00        1/6/01
         Contract No. 95-743-1005 with Outsourced Administrative
         Systems, Inc.

00-22    Audit of Corporation for National and Community Service         9/21/00      9/21/01
         Contract No. 94-002 with Encore Management Corporation

00-24    Pre-Audit Survey Report of the Alaska State Community           8/8/00        8/8/01
         Service Commission

01-05    Audit of Corporation for National and Community Service         1/11/01      1/11/02
         Grant Numbers 94SCSDE008, 94ASCDE008, 95PDSDE008,
         and 95LCSDE002 Awarded to Delaware Community Service
         Commission




                                             19              FY02 Semiannual Report No. 1
   CORPORATION FOR NATIONAL AND COMMUNITY SERVICE

     OFFICE OF INSPECTOR GENERAL


      HOTLINE
                 Corporation Employees!
       Concerned Citizens!          Grantee Employees!

AmeriCorps Members!                       Senior Corps Volunteers!




     Report suspected fraud, waste or abuse.
                ? ?   All information is confidential.

                ? ?   You may remain anonymous.


             1-800-452-8210
                             Or write:

                      OIG HOTLINE
      Corporation for National and Community Service
          1201 New York Avenue N.W. Suite 830
                  Washington, D.C. 20525
